<html>
<title> - PROMOTING SAFE WORKPLACES THROUGH EFFECTIVE AND RESPONSIBLE RECORDKEEPING STANDARDS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   PROMOTING SAFE WORKPLACES THROUGH
                       EFFECTIVE AND RESPONSIBLE
                        RECORDKEEPING STANDARDS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 25, 2016

                               __________

                           Serial No. 114-50

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
   
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-235 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    TIM WALBERG, Michigan, Chairman

Duncan Hunter, California            Frederica S. Wilson, Florida,
Glenn Thompson, Pennsylvania           Ranking Member
Todd Rokita, Indiana                 Mark Pocan, Wisconsin
Dave Brat, Virginia                  Katherine M. Clark, Massachusetts
Michael D. Bishop, Michigan          Alma S. Adams, North Carolina
Steve Russell, Oklahoma              Mark DeSaulnier, California
Elise Stefanik, New York             Marcia L. Fudge, Ohio















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 25, 2016.....................................     1

Statement of Members:
    Walberg, Hon. Tim, Chairman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3
    Wilson, Hon. Frederica S., Ranking Member, Subcommittee on 
      Workforce Protections......................................     4
        Prepared statement of....................................    10

Statement of Witnesses:
    Sapper, Mr. Arthur G., Partner, McDermott Will and Emery LLP, 
      Washington D.C.............................................    52
        Prepared statement of....................................    54
    Sarvadi, Mr. David, Partner, Keller and Heckman LLP, 
      Washington, D.C............................................    12
        Prepared statement of....................................    15
    Sokas, Dr. Rosemary, M.D., Professor and Chair, Department of 
      Human Science, Georgetown University School of Nursing and 
      Health Studies, Washington, D.C............................    39
        Prepared statement of....................................    41
    Sprick, Ms. Lisa, President, Sprick Roofing Co., Corvallis, 
      OR.........................................................    30
        Prepared statement of....................................    32

Additional Submissions:
    Mr. Sapper:
        Letter dated October 27, 2015, from McDermott Will and 
          Emery..................................................    94
        Letter dated May 31, 2016, from McDermott Will and Emery.   107
    Chairman Walberg:
        Letter dated May 24, 2016, from AGC of America...........   110
        Letter dated May 31, 2016, from Akin Gump Strauss Hauer 
          and Feld LLP...........................................   111
    Ms. Wilson:
        GAO Report: Enhancing OSHA's Records Audit Process Could 
          Improve the Accuracy of Worker Injury and Illness Data.     6
        GAO Report: Better OSHA Guidance Needed on Safety 
          Incentive Programs.....................................     7
        GAO Report: Additional Data Needed to Address Continued 
          Hazards in the Meat and Poultry Industry...............     8
        GAO Report Links.........................................     9
        Op-ed entitled ``Don't Fear the Injury Data''............    78
        Warning Notice...........................................    81
        Letter dated May 23, 2016, from Harvard Kennedy School 
          Ash Center for Democratic Governance and Innovation....    89
        Letter dated May 24, 2016, from the American Federation 
          of State, County, and Municipal Employees (AFSCME).....    85
        Letter dated May 24, 2016, from United Steelworkers......    87
        Letter dated May 25, 2016, from Public Citizen...........    83

 
                   PROMOTING SAFE WORKPLACES THROUGH
                       EFFECTIVE AND RESPONSIBLE
                        RECORDKEEPING STANDARDS

                              ----------                              


                        Wednesday, May 25, 2016

                     U.S. House of Representatives

                Committee on Education and the Workforce

                 Subcommittee on Workforce Protections

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2175, Rayburn House Office Building. Hon. Tim Walberg 
[Chairman of the subcommittee] presiding.
    Present: Representatives Walberg, Bishop, Stefanik, Wilson, 
Pocan, and DeSaulnier.
    Also Present: Representatives Kline and Scott.
    Staff Present: Bethany Aronhalt, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Ed 
Gilroy, Director of Workforce Policy; Jessica Goodman, 
Legislative Assistant; Callie Harman, Legislative Assistant; 
Nancy Locke, Chief Clerk; John Martin, Professional Staff 
Member; Dominique McKay, Deputy Press Secretary; Krisann 
Pearce, General Counsel; Molly McLaughlin Salmi, Deputy 
Director of Workforce Policy; Alissa Strawcutter, Deputy Clerk; 
Loren Sweatt, Senior Policy Advisor; Olivia Voslow, Staff 
Assistant; Joseph Wheeler, Professional Staff Member; Tylease 
Alli, Minority Clerk/Intern and Fellow Coordinator; Christine 
Godinez, Minority Staff Assistant; Brian Kennedy, Minority 
General Counsel; Richard Miller, Minority Senior Labor Policy 
Advisor; Veronique Pluviose, Minority Civil Rights Counsel; and 
Marni von Wilpert, Minority Labor Detailee.
    Chairman Walberg. A quorum being present, the subcommittee 
will come to order. Good morning. I want to start by thanking 
our witnesses for being here today.
    As members of the Subcommittee on Workforce Protections, we 
greatly benefit from your expertise, and we appreciate that you 
took time out of your busy schedules to testify here today, and 
walked in from beautiful weather outside as well. 
Representative Pocan and I were trying to figure out how we 
could do this outdoors instead of indoors, but protocol 
continues.
    There are many issues under our jurisdiction that touch 
workplaces across the country. One of the more important issues 
is employee health and safety. This is a challenging issue that 
directly impacts the lives of America's workers and their 
families, and one that demands thoughtful and meaningful 
solutions.
    As I said at a hearing last month, we all agree that 
hardworking men and women should be able to earn a paycheck 
without risking a serious injury or being exposed to a deadly 
disease, and every family deserves the peace of mind that their 
loved ones are safe on the job and will come home to them.
    There is no one in this room who doubts the need for strong 
health and safety protections or that OSHA has a role to play 
in promoting safe workplaces. Reducing occupational injuries, 
illnesses, and fatalities is a priority that crosses party 
lines and stretches from the White House to the halls of 
Congress.
    However, there are times when we share a difference of 
opinion in how to reach that goal. One illness, one injury, or 
one fatality in the workplace is one too many. That is why as a 
Committee we believe bad actors who cut corners and put workers 
in harm's way must be held accountable. At the same time, the 
administration should work with employers to address gaps in 
safety in order to prevent injuries and illnesses before they 
occur.
    We also believe health and safety policies should be 
created with input from the public. Employers and their 
employees know better than most the unique safety challenges 
facing their workplaces. They are there.
    If rules coming out of Washington fail to account for those 
unique challenges, or if they are too complex and confusing to 
understand, they will not deliver the protections workers need. 
That is why the rulemaking process should be transparent and 
allow for public feedback.
    Unfortunately, time and time again, the Obama 
administration has pursued a different, more punitive approach. 
The majority of employers want to do the right thing, and I 
truly believe that, but instead of working with those employers 
to develop proactive safety measures, the agency is focused 
more on punishing everyone for actions of a few. Regulation by 
shaming.
    As I said, employers who jeopardize the safety of workers 
must be held accountable, but the agency's reactive approach 
does nothing to help employers understand complicated 
regulations, and it does nothing to achieve our common goal of 
preventing tragedies from occurring in the first place.
    Several recent changes to OSHA's injury and illness 
reporting standards are the latest example of this flawed 
approach and the focus of our hearing today. These new 
requirements significantly change who the standards apply to, 
what needs to be reported, and how and when OSHA must be 
notified.
    As is often the case, these changes will create additional 
layers of red tape, especially for small businesses with 
limited resources to fully understand complex safety standards. 
To make matters worse, the administration has advanced these 
expensive changes despite broad public concerns.
    One of the most concerning requirements calls for public 
posting of injury and illness records online without 
corresponding context. This regulatory scheme designed to shame 
employers will do little, if anything, to advance the cause of 
worker safety.
    What it will do is make it easier for big labor to organize 
and for trial lawyers to bring frivolous lawsuits. The agency 
will need to spend millions of dollars on this special interest 
tool which will shift scarce resources away from proactive 
policies to improve safety, such as inspections and compliance 
assistance programs, VPP and the like, and in the process, the 
agency is jeopardizing the privacy of workers' personal 
information.
    This rule is not about serving the best interests of 
workers, it is about serving powerful special interests at the 
expense of workers. We owe it to working families to hold the 
administration accountable for its misguided policies and to 
call on OSHA to take a more responsible, effective, and 
collaborative approach.
    This oversight hearing is an important part of that effort 
and our commitment to protecting the health and safety of 
American workers.
    I look forward to today's important discussion, and will 
recognize the Ranking Member, Ms. Wilson, for her opening 
remarks.
    [The statement of Chairman Walberg follows:]

   Prepared Statement of Hon. Tim Walberg, Chairman, Subcommittee on 
                         Workforce Protections

    There are many issues under our jurisdiction that touch workplaces 
across the country. One of the more important issues is employee health 
and safety. This is a challenging issue that directly impacts the lives 
of America's workers and their families, and one that demands 
thoughtful and meaningful solutions.
    As I said at a hearing last month, we all agree that hardworking 
men and women should be able to earn a paycheck without risking a 
serious injury or being exposed to a deadly disease, and every family 
deserves the peace of mind that their loved ones are safe on the job. 
There is no one in this room who doubts the need for strong health and 
safety protections, or that OSHA has a role to play in promoting safe 
workplaces. Reducing occupational injuries, illnesses, and fatalities 
is a priority that crosses party lines, and stretches from the White 
House to the halls of Congress.
    However, there are times when we share a difference of opinion in 
how to reach that goal. One illness, one injury, or one fatality in the 
workplace is one too many. That's why, as a committee, we believe bad 
actors who cut corners and put workers in harm's way must be held 
accountable. At the same time, the administration should work with 
employers to address gaps in safety in order to prevent injuries and 
illnesses before they occur.
    We also believe health and safety policies should be created with 
input from the public. Employers and their employees know better than 
most the unique safety challenges facing their workplaces. If rules 
coming out of Washington fail to account for those unique challenges, 
or if they're too complex and confusing to understand, they won't 
deliver the protections workers need. That's why the rulemaking process 
should be transparent and allow for public feedback.
    Unfortunately, time and again, the Obama administration has pursued 
a different, more punitive approach. The majority of employers want to 
do the right thing. But instead of working with those employers to 
develop proactive safety measures, the agency is focused more on 
punishing everyone for the actions of a few.
    As I said, employers who jeopardize the safety of workers must be 
held accountable. But the agency's reactive approach does nothing to 
help employers understand complicated regulations, and it does nothing 
to achieve our common goal of preventing tragedies from occurring in 
the first place.
    Several recent changes to OSHA's injury and illness reporting 
standards are the latest example of this flawed approach, and the focus 
of our hearing. These new requirements significantly change who the 
standards apply to, what needs to be reported, and how and when OSHA 
must be notified. As is often the case, these changes will create 
additional layers of red tape--especially for small businesses with 
limited resources to fully understand complex safety standards. And to 
make matters worse, the administration has advanced these expansive 
changes despite broad, public concerns.
    One of the most concerning requirements calls for public posting of 
injury and illness records online without corresponding context. This 
regulatory scheme designed to shame employers will do little--if 
anything--to advance the cause of worker safety. What it will do is 
make it easier for Big Labor to organize, and for trial lawyers to 
bring frivolous lawsuits. The agency will need to spend millions of 
dollars on this special interest tool, which will shift scarce 
resources away from proactive policies to improve safety, such as 
inspections and compliance assistance programs. And in the process, the 
agency is jeopardizing the privacy of workers' personal information. 
This rule isn't about serving the best interests of workers--it's about 
serving powerful special interests at the expense of workers.
    We owe it to working families to hold the administration 
accountable for its misguided policies and to call on OSHA to take a 
more responsible, effective, and collaborative approach. This oversight 
hearing is an important part of that effort and our commitment to 
protecting the health and safety of America's workers.
                                 ______
                                 
    Ms. Wilson. Thank you, Chair Walberg, and many thanks to 
the witnesses who are with us here today. Thank you.
    Mr. Chairman, the Occupational Safety and Health 
Administration was established to assure so far as possible 
every working man and woman in the Nation safe and healthful 
working conditions.
    Sadly, every year, tens of thousands of Americans are 
severely injured on the job, with significant, sometimes 
permanent impact to self and family. Until last year, OSHA 
lacked information vital for effectively responding to these 
workplace injuries.
    In its ongoing efforts to improve workplace safety, OSHA 
has issued two rules to provide transparency about injury and 
illness rates and to ensure disclosed information is accurate.
    First, as of January 2015, OSHA requires employers to 
report work-related amputations, inpatient hospitalizations, or 
loss of eye within 24 hours. This severe injury reporting 
requirement is in addition to OSHA's preexisting requirement to 
report all fatalities within eight hours.
    In the year since this requirement took effect, over 10,000 
incidents were reported to Federal OSHA alone, including 2,644 
amputations and 7,636 inpatient hospitalizations.
    Ideally, OSHA would inspect each workplace where a severe 
injury occurs, but because Congress has literally starved OSHA 
of much-needed resources, the Federal agency lacks a sufficient 
number of facility inspectors. For example, with only 63 
inspectors in my home state of Florida, it would take 266 years 
for OSHA to inspect each workplace in Florida.
    Despite its limited resources with 24-hour reporting of 
severe injuries, OSHA was able to work with employers, asking 
them to conduct their own incident investigations, report their 
findings to OSHA, and implement remedies to eliminate hazards 
and prevent recurrence.
    For example, while a worker at a Missouri meat processing 
plant was cleaning a blender, it started up suddenly, 
amputating both of the worker's lower arms. The employer 
immediately reengineered the blender's computer control system, 
changed safety interlocks, and enhanced worker training and 
supervision, significantly reducing the risk of amputation. 
According to OSHA, the worker's arms were surgically reattached 
and he is undergoing rehabilitation.
    Under its more recent efforts to protect worker safety, 
OSHA issued a final rule on May 12, 2016, requiring large 
employers and those in high hazard industries to electronically 
transmit to OSHA injury logs and annual summaries employers are 
already required to maintain and make available to their 
employees. OSHA will make this information publically available 
on its Web site. OSHA will not collect personal identifiers.
    Prior to this rule, most workplace injury and illness logs 
were only available at the workplace, making it impossible for 
OSHA, other employers, prospective employees, investors, and 
public health researchers to know which employers have bad or 
good injury records.
    Some object to posting this data to OSHA's Web site, 
claiming it could harm reputations and damage businesses. 
However, under OSHA's 1995 data initiative, 80,000 
establishments in high-risk industries were required to provide 
OSHA with annual summaries. Since 2004, OSHA posted this data 
to its Web site and used it to target its inspections to the 
most hazardous worksites. Under this new rule, however, the 
universe is expanded to approximately 460,000 establishments.
    Furthermore, for the past 15 years, the Mine Safety and 
Health Administration has posted injury and illness rates 
allowing mine operators, prospective employees, and current 
workers to access the information. Indeed, MSHA posts even more 
information to its Web site than required under OSHA's new 
rule.
    I would again argue that responsible employers want to 
demonstrate to their employees, investors, and the public eye 
that they are committed to workplace safety. Public disclosure 
can help nudge employers towards improved safety outcomes.
    DOL's reporting rules also seek to ensure injury and 
illness reports and records are accurate. This means addressing 
the major problem of underreporting of injuries, as recommended 
by two GAO reports for this Committee. These GAO reports 
document how employer policies, such as rate-based safety 
incentive programs, discourage workers from reporting injuries.
    One can easily imagine how programs that cut potential 
employee bonuses when the worksite injury rate goes up can have 
a chilling effect on reporting. In addition, the Committee will 
be releasing a new GAO report examining underreporting of 
injuries in the poultry and meat process industries.
    To further ensure accuracy of data, OSHA's rule also makes 
it clear employers may not discriminate against workers for 
reporting injuries or establish policies discouraging them from 
doing so. We know that the accuracy of reporting rests on 
employees' confidence that reporting injuries will not lead to 
job loss.
    Mr. Chairman, I ask unanimous consent to enter these three 
GAO reports into the record.
    Chairman Walberg. Without objection, and hearing none, they 
will be entered.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Ms. Wilson. Mr. Chairman, as we begin this hearing, I want 
to remind all in attendance that we should focus on ensuring 
safe workplaces for those we represent. Our constituents have 
families. They have loved ones. They deserve our efforts to 
come together as the Subcommittee on Workforce Protections to 
promote and protect safe and healthy workplaces for all 
Americans.
    I also want to welcome visiting with me today, Paridas 
Gouba, from Burkina Faso, West Africa. Paridas, raise your hand 
so they can see you. She is shadowing me today from West 
Africa.
    I want to thank the witnesses for their testimony today, 
and I yield back the balance of my time.
    [The statement of Ranking Member Wilson follows:]

    Prepared Statement of Hon. Frederica S. Wilson, Ranking Member, 
                 Subcommittee on Workforce Protections

    Mr. Chairman, the Occupational Safety and Health Administration was 
established ``to assure so far as possible every working man and woman 
in the Nation safe and healthful working conditions.''
    Sadly, every year, tens of thousands of Americans are severely 
injured on the job, with significant, sometimes permanent, impact to 
self and family. Until last year, OSHA lacked information vital for 
effectively responding to these workplace injuries.
    In its ongoing efforts to improve workplace safety, OSHA has issued 
two rules to provide greater transparency about injury and illness 
rates and to ensure disclosed information is accurate.
    First, as of January 2015, OSHA requires employers to report work-
related amputations, inpatient hospitalizations or loss of eye within 
24 hours. This severe injury reporting requirement is in addition to 
OSHA's pre-existing requirement to report fatalities within 8 hours.
    In the year since this requirement took effect, over 10,000 
incidents were reported to federal OSHA alone--including 2,644 
amputations and 7,636 in-patient hospitalizations.
    Ideally, OSHA would inspect each workplace where a severe injury 
occurs, but because Congress has starved OSHA of much-needed resources, 
the federal agency lacks a sufficient number of facility inspectors. 
For example, with only 63 inspectors in my home state of Florida, it 
would take 266 years for OSHA to inspect each workplace.
    Despite its limited resources, with 24 hour reporting of severe 
injuries, OSHA was able to work with employers, asking them to conduct 
their own incident investigations, report their findings to OSHA, and 
implement remedies to eliminate hazards and prevent recurrence.
    For example, while a worker at a Missouri meat processing plant was 
cleaning a blender, it started up suddenly, amputating both of the 
worker's lower arms. The employer immediately re-engineered the 
blender's computer control system, changed safety interlocks, and 
enhanced worker training and supervision, significantly reducing the 
risk of amputation. According to OSHA, the worker's arms were 
surgically reattached, and he is undergoing rehabilitation.
    Under its more recent efforts to protect worker safety, OSHA issued 
a final rule on May 12, 2016 requiring large employers and those in 
high hazard industries to electronically transmit to OSHA injury logs 
and annual summaries employers are already required to maintain and 
make available to their employees. OSHA will make this information 
publically available on its website. OSHA will not collect personal 
identifiers.
    Prior to this new rule, most workplace injury and illness logs were 
only available at the workplace, making it impossible for OSHA, other 
employers, prospective employees, investors and public health 
researchers to know which employers have bad or good injury records.
    Some object to posting this data to OSHA's web site, claiming it 
could harm reputations and damage businesses.
    However, under OSHA's 1995 Data Initiative, 80,000 establishments 
in high risk industries were required to provide OSHA with annual 
summaries. Since 2004, OSHA posted this data to its website and used it 
to target its inspections to the most hazardous worksites. Under this 
new rule, however, the universe is expanded to approximately 460,000 
establishments.
    Furthermore, for the past 15 years, the Mine Safety and Health 
Administration has posted injury and illness rates, allowing mine 
operators, prospective employees, and current workers to access the 
information. Indeed, MSHA posts even more information to its website 
than required under OSHA's new rule.
    I would also argue that responsible employers want to demonstrate 
to their employees, investors, and the public that they are committed 
to workplace safety. Public disclosure can help nudge employers towards 
improved safety outcomes.
    DOL's reporting rule also seeks to ensure injury and illness 
reports and records are accurate.
    This means addressing the major problem of underreporting of 
injuries, as recommended by two GAO reports for this committee. These 
GAO reports document how employer policies, such as rate based safety 
incentive programs, discourage workers from reporting injuries. One can 
easily imagine how programs that cut potential employee bonuses when 
the worksite injury rate goes up can have a chilling effect on 
reporting. In addition, the committee will be releasing a new GAO 
report examining underreporting of injuries in the poultry and meat 
process industries.
    To further ensure accuracy of data, OSHA's rule also makes it clear 
employers may not discriminate against workers for reporting injuries 
or establish policies discouraging them from doing so. We know that the 
accuracy of reporting rests on employees' confidence that reporting 
injuries will not lead to job loss.
    Mr. Chairman, I ask unanimous consent to enter these three GAO 
reports into the record.
    Mr. Chairman, as we begin this hearing, I want to remind all in 
attendance that we should focus on ensuring safe workplaces for those 
we represent. Our constituents have families. They have loved ones. 
They deserve our efforts to come together as the Subcommittee on 
Workforce Protections to promote and protect safe and healthy 
workplaces for all Americans.
    I want to thank the witnesses for their testimony today and yield 
back the balance of my time.
                                 ______
                                 
    Chairman Walberg. I thank the gentlelady, and having been 
to Burkina Faso a number of times, welcome, good to see you 
here.
    Pursuant to Rule 7(c), all subcommittee members will be 
permitted to submit written statements to be included in the 
permanent hearing record, and without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce today's witnesses 
beginning with Mr. David Sarvadi, who is a partner with Keller 
and Heckman LLP here in Washington, D.C., and will testify on 
behalf of the Coalition for Workplace Safety.
    Mr. Sarvadi represents clients before a variety of Federal 
and State enforcement agencies in legal proceedings involving 
OSHA citations, EPA notices of violation, and EEOC charges of 
discrimination. He works with clients in developing, reviewing, 
and auditing compliance programs in all of these areas, and in 
obtaining agency rulings on proposed activities and questions. 
Welcome.
    Ms. Lisa Sprick is president of Sprick Roofing in 
Corvallis, Oregon, a great place for fly fishing as well, and 
will testify on behalf of the National Roofing Contractors 
Association. Sprick Roofing, a family-owned business 
established in 1952, installs low and steep slope roof systems 
on both commercial and residential buildings. Welcome.
    Dr. Rosemary Sokas is chair of the Department of Human 
Science at the Georgetown University School of Nursing and 
Health Studies here in Washington, D.C., and will testify on 
behalf of the American Public Health Association. Dr. Sokas has 
more than 30 years of experience in the field of occupational 
and environmental medicine and public health. Welcome.
    Finally, Mr. Arthur G. Sapper, is a partner with McDermott 
Will & Emery LLP here in Washington, D.C. Mr. Sapper practices 
administrative and regulatory law, focusing on all areas of 
occupational safety and health law, and mine safety and health 
law, regularly litigating before the Occupational Safety and 
Health Review Commission, the Federal Mine Safety and Health 
Review Commission, the Federal appellate courts, and various 
administrative bodies. Welcome.
    I will now ask our witnesses to raise your right hands.
    [Witnesses sworn.]
    Chairman Walberg. Let the record reflect the witnesses 
answered in the affirmative. Before I recognize you to provide 
your testimony, let me briefly explain our lighting system, 
which is pretty self-explanatory. Green, your five minutes 
continue on until you see yellow, which is a caution light that 
says you have one minute remaining, and when red hits, please 
do your best to finish up your statement in the next paragraph 
or so. We would appreciate that, and we will hold our Committee 
to that standard as well.
    Let me now ask Mr. Sarvadi to lead us in his five minutes 
of testimony.

 TESTIMONY OF DAVID SARVADI, PARTNER, KELLER AND HECKMAN LLP, 
  WASHINGTON, D.C., TESTIFYING ON BEHALF OF THE COALITION FOR 
                        WORKPLACE SAFETY

    Mr. Sarvadi. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Wilson, members, honored guests, and fellow panelists, I 
am honored to be asked to participate in this important 
hearing.
    Looking back on now the long history of the Occupational 
Safety and Health Administration, I have concluded that 
workplace safety and health efforts in the United States have 
been a great success. I actually started my career prior to the 
creation of the Occupational Safety and Health Administration, 
and I spent 15 years as an industrial hygienist in the real 
world dealing with these kinds of problems before I came to 
Washington.
    From 1970 to 2014, the overall case rate has declined by 
more than five times, and fatalities from 14,000 to 4,800. Of 
the fatalities, roadway accidents represent 36 percent of the 
total, homicides, 9 percent, and aircraft incidents, 17 
percent, which means that more than half of all fatalities are 
related to transportation.
    Those are areas that most employers do not normally involve 
themselves in. Obviously, there are employers who do, and those 
employers have in many cases robust programs to address those 
kinds of hazards.
    What I am pointing out here is the focus of our attention 
on workplace incidents and injuries needs to be focused on 
things that we can actually control and correct.
    While my remarks will be critical of the path OSHA has 
taken in recent years, I do not want to be misinterpreted. 
Workplace safety and health is a very important topic, and I am 
not suggesting in any way that our efforts should be lessened, 
but I am challenging the mindset that suggests it is best seen 
as a competition between management and labor, more 
characteristic of 1930s' thinking. In 2016, we should be 
looking at ways to cooperate rather than to be at loggerheads.
    The Bush administration, in my view, made significant 
progress in that area, but I think OSHA has gotten off track. 
The emphasis on enforcement has been overwhelming while the 
results have been less than impressive. The rate for both 
fatalities and total cases has stagnated.
    Worse, OSHA's reputation has reverted to be a poster child 
of government high-handedness. Only the IRS is likely to have a 
worse and perhaps well-deserved reputation among the citizens.
    OSHA's direction needs to be changed. They are exceeding 
limits of congressional authority repeatedly and ignoring 
administrative law guardrails that help preserve our tripartite 
system of government. Its purpose is to assure that liberty is 
preserved and government is focused on things it can control.
    OSHA has moved far beyond merely establishing reasonably 
necessary and appropriate standards and regulations to achieve 
Congress' goal of safe and healthy workplaces. OSHA's job is 
not to save lives, contrary to its relentless propaganda. 
Congress placed the responsibility for protecting employees on 
employers, not OSHA. OSHA's job is to make the rules, provide 
education and support to employers and employees, and for those 
who fail to do so, surely to enforce to the full extent of the 
law. The current administration's emphasis on enforcement is 
misplaced and training and supporting have been given short 
shrift.
    The proposals and regulations discussed in my written 
testimony wrongly focus on the details of paperwork, 
distracting both OSHA and employers from the real task at hand. 
We have a pretty good handle on the trends in workplace safety 
statistics.
    The Bureau of Labor Statistics does a good job of surveying 
employees using widely accepted statistical techniques, about 
which I was privileged to be educated as part of a National 
Academy of Sciences' committee. The BLS approach is sound and 
is constantly being improved by its staff.
    Unless there is something really wrong with the BLS 
approach or statistical theory, the trends are well known and 
will not be affected by OSHA's obsession with counting cases.
    I wish I could be optimistic in this field, that we could 
have a real conversation about why things have stalled and what 
can be done about it. I see no evidence that the current 
administration is interested in doing so.
    As evidence of that fact, I would point to the advisory 
committees that OSHA uses. Few, if any, of the people on the 
committees depart from the current orthodoxy, technological 
change long ago overtook practices that have been entrenched 
only due to intellectual inertia.
    Here is what I think should be done. The recently adopted 
proposals should be shelved until the details of the program 
can be developed in conjunction with employers who will have to 
use the system. OSHA should be prohibited from publishing 
specific case data on injuries and illnesses and the regulation 
allowing OSHA to issue citations for retaliation should be 
rejected by Congress and the courts as usurpation of 
congressional legislative authority.
    For those in favor of these approaches, I remind them 
eventually people with different viewpoints will be in charge 
and they may not like what is then permitted under the loose 
interpretation of their authority.
    Thank you again, Mr. Chairman and Ranking Member, for the 
opportunity to participate in this hearing, and for your 
interest in workplace safety and health. I will be happy to 
answer any questions you may have.
    [The statement of Mr. Sarvadi follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Walberg. Thank you. Ms. Sprick, we recognize you 
now for five minutes of testimony.

TESTIMONY OF LISA SPRICK, PRESIDENT, SPRICK ROOFING CO., INC., 
  CORVALLIS, OR, TESTIFYING ON BEHALF OF THE NATIONAL ROOFING 
                    CONTRACTORS ASSOCIATION

    Ms. Sprick. Thank you, Mr. Chairman, and members of the 
subcommittee. My name is Lisa Sprick, and I am president of 
Sprick Roofing in Corvallis, Oregon. I am testifying today on 
behalf of the National Roofing Contractors Association, and 
appreciate the opportunity to provide the perspective of 
professional roofing contractors on workplace safety 
regulations.
    Sprick Roofing was founded in 1952 and currently has 25 
employees. To date, we have worked 1,360 work days or more than 
five years without a time loss accident, and I believe this 
speaks to my company's exceptional commitment to safety.
    There is concern within our industry regarding OSHA 
regulations and impacts they will have on worker safety and 
businesses like mine. I believe these regulations will do 
little to promote safer workplaces and could prove to be 
counterproductive to this goal.
    OSHA's overreaching regulatory approach seems to be stuck 
in a ``Washington, D.C. knows best'' mode of regulating our 
industry, and I do not believe that Washington always knows 
best.
    The first concern I will discuss is OSHA's regulation to 
require companies to submit their injury and illness records 
electronically to the agency. OSHA states that posting these 
records online will provide employees and others with 
information that will enhance workplace safety. However, the 
data as included in the reports lack meaningful context, which 
is critical to understanding the information properly. Without 
context, it is unclear how the information being made public 
will improve workplace safety.
    Also, misuse of the information by third parties could be 
harmful to employers. It is not hard to imagine one of my 
competitors gathering this information and using it to sell 
against me.
    Another concern is possible inadvertent public disclosure 
of private employee information that could cause harm to my 
workers. Our company goes to great lengths to protect sensitive 
employee data. As a small business owner, I have many questions 
about what would happen if this information was inadvertently 
disclosed.
    It is also unclear to me what impact the rule will have on 
employee incentive programs designed to promote workplace 
safety. I share OSHA's intent to ensure employees must not be 
deterred from reporting injuries, and our program provides 
incentives to employees to follow the rules that meet or exceed 
OSHA standards.
    We take a proactive approach to safety and even encourage 
our employees to report near misses so we can identify problems 
and prevent injuries from occurring.
    This regulation and the other OSHA actions have produced 
much ambiguity with respect to how OSHA views incentive 
programs. The expanded authority in this regulation may remove 
a key tool that employers use to ensure safe workplaces.
    Another concern with this regulation is adding unnecessary 
costs, which is always a concern to small businesses that 
operate on a thin margin. This is especially true for 
responsible employers, like my company, which comply and often 
exceed government regulations, when competing against 
contractors who do not always work under the same compliance 
with laws and regulations.
    I feel that adding new reporting burdens that promise 
unspecified benefits merely diverts valuable resources from 
risk management strategies that truly protect workers. Efforts 
to improve workplace safety could be more effective if OSHA 
worked with employers on such strategies.
    Another very serious concern I have is OSHA's recent 
efforts to impose Federal fall protection regulations on States 
like Oregon. This could jeopardize the safety of workers in 
Oregon and other States like California and Michigan.
    I recently learned that Oregon will adopt Federal fall 
protection rules after OSHA demanded our State change its rules 
or be faced with losing its State plan status. This will limit 
fall protection options which may be the most effective in 
preventing falls in many situations.
    Oregon rules now allow for more fall protection options, 
including the use of slide guards installed at the roof edge to 
prevent falls. My company has been using this option for 63 
years and we have never had a fatality or serious accident 
related to their use. We believe that under many circumstances, 
slide guards are the most effective option for preventing 
injuries.
    It is disturbing that OSHA will impose Federal rules on our 
State given that Oregon's record in preventing falls is better 
than other States operating under Federal rules. I do not 
understand why OSHA would insist on imposing changes without 
having empirical evidence that the Federal rules are more 
effective than the State rules.
    I would urge Congress to prevent OSHA from imposing its 
rules on State plans like Oregon's and similar States unless 
the agency has data to clearly demonstrate that its rules 
produce better results that actually protect workers.
    To conclude, I want to reiterate that there is great 
concern within the roofing industry with respect to OSHA's 
overreaching approach to regulation. It is vital that 
employers, workers, government agencies, and other stakeholders 
work together to craft effective safety policies based on sound 
risk management principles and reliable data.
    NRCA and its members stand ready to work with Congress and 
OSHA on efforts to improve workplace safety in the future. I 
appreciate the opportunity to testify today, and I welcome any 
questions you may have. Thank you.
    [The statement of Ms. Sprick follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Chairman Walberg. Thank you. Dr. Sokas, we welcome you and 
recognize you for five minutes.

    TESTIMONY OF ROSEMARY SOKAS, M.D., PROFESSOR AND CHAIR, 
 DEPARTMENT OF HUMAN SCIENCE, GEORGETOWN UNIVERSITY SCHOOL OF 
    NURSING AND HEALTH STUDIES, TESTIFYING ON BEHALF OF THE 
               AMERICAN PUBLIC HEALTH ASSOCIATION

    Dr. Sokas. Thank you. Chairman Walberg, Ranking Member 
Wilson, and members of the subcommittee, thank you for this 
invitation. My name is Rosemary Sokas, and I am providing these 
remarks on behalf of the American Public Health Association.
    My testimony will cover three areas. First, OSHA's 
recordkeeping rule and its severe injury reporting rule will 
help prevent workplace illness and injury and improve 
transparency. Second, there is a need to improve accuracy of 
information by addressing the problem of underreporting. And 
third, APHA supports OSHA's efforts to protect vulnerable 
workers from retaliation for reporting workplace illness or 
injury.
    OSHA's new recordkeeping rule will bring injury and illness 
reporting into the 21st century through an efficient Web-based 
mechanism that allows employers to upload information they are 
already collecting. This rule does not impose any new 
recordkeeping responsibilities, but rather requires the 
information to be electronically transmitted.
    Personally identifiable information will not be collected 
by OSHA, so that should alleviate most of the privacy concerns.
    Accurate and timely information is important not only to 
identify problems but to make sure that solutions work. With 
OSHA's severe injury reporting program, as you have heard 
already, the employers are now reporting hospitalization, 
amputations, and loss of an eye, and OSHA has had the chance to 
investigate and to encourage the employers to investigate over 
10,000 severe injury cases.
    One example of immediate benefit is that grocery stores, 
which are only rarely investigated by OSHA, turned out to be a 
leading locust for amputations. This information helped 
pinpoint problems with food slicing and allowed OSHA to provide 
outreach and compliance assistance. In some cases, a single 
sentinel event may serve to alert the industry to an 
unrecognized hazard.
    Public health agencies at the State and local levels will 
now have worksite data to evaluate the impact of their policies 
by comparing baseline and follow-up data across a particular 
industry as well as by conducting comparisons with States that 
have different programs or regulations.
    Industry associations and academics will have access to 
information across a large enough population to be able to draw 
meaningful conclusions.
    OSHA's rule takes needed steps to address underreporting, a 
problem that has been well reported by GAO investigations, as 
well as BLS, as well as academics.
    NIOSH has conducted a series of health hazard evaluations 
in poultry processing where in one plant, fully 34 percent of 
the workforce, 64 out of 191 people, met strict case 
definitions for carpal tunnel syndrome while only four cases 
had been reported on the OSHA logs during the previous four 
years. When surveyed, 20 workers described work-related illness 
or injury meeting OSHA's criteria for recordkeeping, but only 
one of these incidents was recorded in the log for that year.
    Aggressive return-to-work policies can suppress reporting. 
I have reviewed cases in which workers were driven to work on 
the day of the surgery or the day after while still on narcotic 
medication in order to reduce the days away rate.
    The OSHA record is full of reports from workers in a 
variety of industries who received demerits when they suffered 
an injury or go through safety and health investigations that 
focus on punishing the worker, including threats of firing.
    As OSHA's chief medical officer, I interviewed poultry 
workers who impressed on me the widespread fear of job loss and 
a sense of fatalism among many that they had grown used to 
living with pain and disability from their jobs. The particular 
corporation not only failed to protect its workers but failed 
to protect its products, and was subject to then the largest 
beef recall in U.S. history and went bankrupt.
    High-performing organizations, on the other hand, will 
encourage the reporting of hazards and near-miss events and 
reward rather than discipline workers for identifying hazards 
and solutions.
    Data collection is not a paperwork exercise. It is a tool 
to identify problems and ensure that solutions work.
    I worked in a hospital that tried to reduce needle stick 
injuries by installing boxes to dispose of the sharps in 
crowded rooms, where they put the boxes too high and the nurses 
got stuck when they went to put the sharps in. Had those nurses 
been prevented from reporting by being shamed or criticized, we 
would never have found out that in fact the boxes were a 
problem and been able to fix the problem.
    During OSHA's comment period, APHA urged OSHA to recognize 
and discourage attempts to systematically suppress illness and 
injury reporting, and even carpenters have expressed concerns 
about loss of jobs from reporting.
    I am going to close with two quotes from a researcher at 
Duke who found carpenters saying things like, ``With my 
company, people are afraid to report injuries even when they 
get hurt because they will lose their jobs, not immediately, 
but in like two or three months when it blows over, you are 
fired.'' That is the concern we are grateful to OSHA for 
addressing.
    [The statement of Dr. Sokas follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
        
    Chairman Walberg. Thank you, Dr. Sokas. I will now 
recognize Mr. Sapper for your five minutes of testimony.

TESTIMONY OF ARTHUR G. SAPPER, PARTNER, McDERMOTT WILL & EMERY 
                     LLP, WASHINGTON, D.C.

    Mr. Sapper. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I am testifying here about a 
concern of the rule of law. OSHA is behaving like an imperial 
bureaucracy. It is trying to do what simple logic indicates is 
impossible, to extend the statute of limitations by merely 
amending regulations.
    In the Volks case, which I had the privilege of appearing 
in, the U.S. Court of Appeals for the D.C. Circuit held that 
the statute of limitations in the Occupational Safety and 
Health Act means what it says, that no citation may be issued 
following the expiration of six months after the occurrence of 
a violation. OSHA had been issuing citations against employers 
alleging violations as old as five years. The D.C. Circuit said 
OSHA could not do that, and it spoke unanimously on that point.
    Nevertheless, OSHA is trying to get around that court 
decision by merely changing its regulations to state that an 
employer is under a continuing obligation when the Court of 
Appeals said there is no continuing obligation, you cannot do 
that.
    The court specifically told OSHA that the idea of extending 
the statute of limitations by merely amending its regulations 
is absurd and madness, ``There is truly no end to such 
madness.''
    Not only that, but the United States Supreme Court in the 
Toussie case held that questions of the statute of limitations 
are matters of legislative, not administrative decision. The 
statute itself, apart from the regulations, must justify what 
the agency is doing.
    Most troubling of all, OSHA's proposal, which it has 
published in the Federal Register, would defeat the core 
purpose of the statute of limitations, to prevent the bringing 
of stale charges. Here, the charges would be as stale as five 
years.
    By the way, in the Volks case, in the years since the 
alleged violations occurred, one of the recordkeepers had died, 
crippling the employer's ability to defend. OSHA's proposal 
ignores the effect of staleness.
    The Committee should make clear to the administration that 
it may not do this. It is also troubling that OSHA has ignored 
the literal effect of its proposal. As Judge Garland's 
concurring opinion in the Volks case points out, it would 
``obligate an employer to constantly reexamine unrecorded 
injuries and illnesses.''
    The cost of constant reexamination of unrecorded cases, of 
every day reexamining whether or not an unrecorded wound should 
have been recorded would be staggering, $2 billion I estimate 
for just a single unrecorded case. Yet OSHA itself estimates 
that the benefit of its proposed regulation would merely be a 1 
percent increase in the compliance rate.
    The Committee may ask why OSHA thinks it may do such 
questionable things. There are two basic reasons, in my view. 
First, the Federal courts under the Chevron and Auer doctrines 
have told agencies that they, not the courts, are the 
authoritative interpreter of statutes and regulations.
    This doctrine gives agencies enormous power, and in my 
experience, contributes to their sense of arrogance, for 
agencies almost never think they are unreasonable and they will 
not get deference.
    Second, the Office of Management and Budget has an office 
called Information and Regulatory Affairs, OIRA. That office 
has been reluctant to question OSHA's representations that 
their proposed regulations are not significant within the 
meaning of Executive Order 12866.
    That reluctance was particularly striking in this case 
because OSHA's reasoning on costs made no sense. It completely 
ignored the cost of what Judge Garland called ``constant 
reexamination.''
    OSHA's proposal clearly met another criterion for 
examination under the executive order, that the proposal 
``raises novel legal issues.'' I submit that whether a mere 
regulation can effectively override a statute of limitations is 
certainly a ``novel legal issue.''
    I thank the Committee, and I would be happy to answer your 
questions.
    [The statement of Mr. Sapper follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
        
    Chairman Walberg. Thank you, Mr. Sapper, for your 
testimony. Now, I recognize the gentleman from Minnesota, the 
Chairman of the full Committee, Mr. Kline, for his five 
minutes.
    Mr. Kline. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here, excellent testimony.
    Ms. Sprick, you have a fascinating story, a very successful 
business. I have a note here that says Sprick Roofing has 
worked for more than five years without a time loss accident. 
You tell us you have a safety incentive program, and I would 
assume that this program is contributing to your company's 
really successful safety record.
    Could you expand for us on how you think OSHA's actions 
would hinder your efforts to continue to implement this 
successful safety program?
    Ms. Sprick. Thank you. Our safety program, safety incentive 
program, is based on following the rules and regulations OSHA 
has outlined, as well as beyond that, things that we have 
identified through our internal incident reports, to track and 
look at trends of potential injuries that could occur.
    I am afraid that if OSHA takes away those incentives, then 
my employees will not--incentivizing positive behavior is 
basically what we are doing. I am afraid taking that away will 
just give our employees the impression that it is not as 
important.
    Not only do we do safety incentives, we do quality control 
incentives, we do all across the board. We do several different 
things to incentivize our employees to do the right thing and 
reward their positive behavior.
    I am afraid since safety is probably the most important of 
anything we do, taking away that incentive and that impression 
that it is not important is concerning to me.
    Mr. Kline. Thank you. Mr. Chairman, I yield the remainder 
of my time to you.
    Chairman Walberg. Thank you, Mr. Chairman, I appreciate 
that. I certainly have plenty of questions I could ask, so 
thank you.
    Let me follow on that, Ms. Sprick. Recording an injury is 
not preventing an injury. I think we could agree on that.
    Ms. Sprick. Yes.
    Chairman Walberg. Can you explain the safety protocols your 
company employs to prevent workplace injuries for us?
    Ms. Sprick. What we do to prevent injuries?
    Chairman Walberg. Yes, the protocols that you have in 
place, what are those?
    Ms. Sprick. Well, we do a safety orientation. Every job has 
a particular safety plan that we analyze on every job before we 
go out, so we can be sure we have all our bases covered. We do 
safety meetings daily, and also for each job, and then we also 
have job site inspections. Our safety director goes out and 
does our own internal inspections during the course of the work 
that is being done to check and make sure that everything we 
discussed to be done is happening according to plan.
    Chairman Walberg. This is done daily with the employees on 
the site or back at the office?
    Ms. Sprick. The job site inspections or the safety plan?
    Chairman Walberg. The safety plan, the safety instructions.
    Ms. Sprick. It starts at our office. It actually starts at 
the bidding process when we look at a job and we look at the 
particulars of a job, look at what needs to be done, and then 
from there once we get the job, it starts at the office with 
the crew before they go out. Once they go out, they are 
inspected on the job as well.
    Chairman Walberg. Thank you. Mr. Sapper, your testimony 
highlights the Volks decision, overturning OSHA's attempt to 
issue citations for an alleged violation of Occupational Safety 
and Health Act more than six months old, as you indicated.
    Does OSHA have the authority to overturn a court ruling 
through a rulemaking?
    Mr. Sapper. No, Mr. Chairman, it does not, and I will be 
happy to explain why. The Supreme Court has already said in the 
Toussie case that questions of limitations are statutory 
questions, not regulatory ones. As I said before, the D.C. 
Circuit in the Volks case said that OSHA's attempt to 
manipulate the result by merely changing its regulations would 
be ``madness'' and ``absurd.'' OSHA--
    Chairman Walberg. Madness and absurd?
    Mr. Sapper. Madness and absurd. Now, in fairness to OSHA, 
the court was talking about a slightly different amendment to 
the regulations, but these two amendments would have the same 
effect.
    Chairman Walberg. Same principle.
    Mr. Sapper. Yes, they would have the exact same effect. In 
principle, they would still be absurd and madness.
    Chairman Walberg. Let me ask, why do you believe OSHA is 
relying on the concurring decision rather than majority opinion 
in the rulemaking process? Does holding of the case come from 
majority opinion or concurrence?
    Mr. Sapper. I think the agency understands that the 
majority opinion of the court is against its position, but it 
is using the concurring opinion or it is using what it thinks 
the concurring opinion says.
    The concurring opinion said regulations do not permit OSHA 
to do what it is doing. OSHA thinks, okay, then we will just 
change the regulations. What OSHA ignores is Judge Garland's 
very astute observation that if OSHA tried to do that, it would 
be imposing a duty of constant reexamination, and OSHA has 
refused to own up to that effect.
    In fact, before the Advisory Committee on Construction 
Safety and Health, when that very question was asked, OSHA said 
no, no, no, there is no duty of constant reexamination. Well, I 
am afraid the agency is being inconsistent on this point. It is 
not owning up to the actual effect of what its proposal would 
mean.
    Chairman Walberg. Thank you. That was Judge Garland's 
opinion. I need to move on. I now recognize the Ranking Member, 
Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Sarvadi, you 
indicated in your testimony on page 11 that nothing in the OSH 
Act gives OSHA the authority to publish workplace injury and 
illness data, is that right? Is that your testimony?
    Mr. Sarvadi. I do not believe I quoted that section but, 
yes, it does give OSHA the authority to publish data on 
workplace injuries and accidents in aggregate form. It does not 
address the question of disclosing individual employee 
conditions.
    Mr. Scott. You say it is a clear usurpation of legislative 
power. The act in Section 8(g) says, ``The Secretary of Labor 
and the Secretary of Health and Human Services are authorized 
to compile, analyze, and publish either in summary or detailed 
form, all reports or information obtained under this section.
    The Secretary and the Secretary of Health and Human 
Services shall each prescribe such rules and regulations as he 
may deem necessary to carry out their responsibilities under 
this act, including rules and regulations dealing with 
inspection of employer's establishment.''
    The language is ``publish either in summary or detailed 
form,'' what does that mean?
    Mr. Sarvadi. To me it means summary form, meaning total 
accident statistics or whatever the statistics they collect. I 
believe it refers to the BLS survey, and it reflected at the 
time the system that was in place that was operated by the 
National Safety Council. There was some criticism of it by 
members of Congress at the time, but what Congress was trying 
to do was improve on what had been the system in place. Nowhere 
were individual company or establishment data being published 
by the National Safety Council--
    Mr. Scott. Just to remind you, the words are ``in summary 
or detailed form, all reports or information obtained under 
this section.''
    Is there any information that is required to be published 
under this rule that is not already being collected?
    Mr. Sarvadi. I do not believe it is, but it is not being 
provided to OSHA in the detail they are talking about. It is 
available to OSHA in an inspection, and it is the first thing 
that inspectors look at when they come through the door.
    Mr. Scott. But the information is already being collected. 
Let me ask another question. Ms. Sokas, can you indicate why it 
is important to collect this data and what data is not being 
reported because of threats?
    Dr. Sokas. I am glad to answer that question. I would just 
like to briefly state--
    Chairman Walberg. Use your microphone.
    Dr. Sokas. I would just briefly like to say, if I might, 
that the proactive program that Ms. Sprick discussed is 
actually the kind of incentive programs that the GAO report was 
positive about in 2012. The kind that it was criticizing were 
the ones where people got bonuses based on not reporting 
illnesses, that kind of thing. This is exactly the kind of 
thing that is supposed to happen.
    The question about the suppression of information through 
punitive responses to reporting a hazard or reporting an injury 
shows that--as an example, when I did chart review of people 
who had, unfortunately, died from being in a confined space 
with solvents or some other kind of chemical exposures where 
they were overcome.
    Almost inevitably we would find examples in that person's 
life where they had previously either passed out at work or 
complained at work, and the early adverse information was not 
taken seriously, was not acted upon. People were just kind of 
revived and resuscitated and sent back into the same location, 
and that is when they died.
    This is the kind of thing that we hope to prevent by having 
the information acted upon as opposed to suppressed.
    Mr. Scott. Is this level of information disclosed now under 
the mine safety laws?
    Dr. Sokas. Absolutely.
    Mr. Scott. Have there been any frivolous lawsuits or any 
adverse effects?
    Dr. Sokas. Not to my knowledge. You can go online for MSHA 
and find all kinds of detailed information equivalent to or 
more than what OSHA is now going to be publishing. That 
information is readily available and has been used by MSHA, 
which is trying to deal with--as you can imagine, the mining 
industry is among the most hazardous--they are able to actually 
target effectively and work with employers. They have had 
substantial success with that.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentlelady from New York, Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. Thank you to our 
witnesses for your testimony today. Data, as we know, has 
become increasingly present in our everyday lives, from data at 
worksites to Fitbits, which I happen to not be wearing mine 
today. We are exposed to endless quantifications of what we do 
on a daily basis.
    This expansive collection of data can be extremely helpful 
when it is utilized with purpose and context to achieve a 
needed goal. We must carefully consider the implications on our 
Nation's small businesses when this collection solves no 
particular problem.
    As we know, it serves no purpose to collect the data just 
for the collection sake, when we should be focusing our efforts 
on preventing workplace accidents in the first place.
    Ms. Sprick, in your testimony you indicate that the data 
the department is requiring from you lacks important context 
and, therefore, will not help you as an employer improve worker 
safety.
    Do you have suggestions for improving the department's data 
collection practices, and how might the Federal Government 
better collect context along with the data?
    Ms. Sprick. Well, if they are just collecting the injury 
and illness side of things, it is just telling one side of the 
story, and they are posting that information, and it gives 
absolutely no context or information about how it occurred, the 
circumstances, the size of business, the number of hours 
worked, the part that will give meaning to that information.
    If they are just posting that information only and you are 
comparing company A to company B and they each have 2 injuries 
reported, the exact same injuries, you do not know that company 
A has 100 employees and company B has 2. Company B is the worse 
company of the two, but you do not have that context to be able 
to evaluate that.
    To me, that is, one, unfair, and it is not showing the real 
story, and the other part of it is that I will have to be 
trying to defend that if I am even given the opportunity, if it 
would go that far. They may just look at that information and 
say okay, that is all I need to know and move on.
    Ms. Stefanik. Thanks for the comments. I think continuing 
to get feedback on the context, to make sure this data is 
viewed, whether it is the size of the business, whether it is 
the hours worked, is extremely important. Data is one thing, 
but the context in which the data exists is extremely 
important.
    Ms. Sprick. The circumstances as well. If one of my 
employees slips and falls on a sidewalk, it will be listed as a 
fall. The assumption will be made because I am a roofing 
contractor that person fell off the roof. That kind of 
information would be helpful.
    Ms. Stefanik. Thanks for those comments. I yield back. I 
yield to Mr. Walberg.
    Chairman Walberg. Thank you. I see good time on the board. 
Thank you. Ms. Sprick, let me go on with some practical 
examples coming from your experience. What are some specific 
actions that OSHA could undertake if they were willing to help 
your company further improve on its safety program? The program 
you defined a bit, how could they help?
    Ms. Sprick. I can use the example just in Oregon. We have a 
very good and collaborative relationship with the Oregon 
compliance officers in our area. We work with them continually.
    Sometimes there is a difficult building configuration that 
we want to make sure we are following procedures and we are 
interpreting the regulations appropriately. We bring them in. 
We set up a safety plan and get their suggestions and work with 
them.
    It is more of a collaborative effort that I feel in the big 
picture will help everyone in the long run. What I think really 
should happen is they should set up a task force with the 
stakeholders that are involved, having to deal with these 
regulations, bring in the trades, bring in the government, 
National Safety Council.
    People that have real life experience and know what it is 
like out in the real world, they are just not sitting around a 
table and coming up with these ideas and thinking this is a 
good one on paper, when in reality, there is no reality.
    I think that is the place they really need to put their 
efforts, and also look at employers and incentivize and reward 
those companies that are doing the right thing versus being 
punitive and punishing the good ones for the few bad apples 
that are out there.
    Chairman Walberg. Mr. Sarvadi, OSHA's public reporting 
regulation also appears to create new whistleblower 
protections. Did OSHA publish this in the proposed regulatory 
text, and were stakeholders given an opportunity to evaluate 
and comment on this provision?
    Mr. Sarvadi. Unfortunately, Mr. Chairman, they did not. It 
was added as a supplemental proposal, but they did not include 
anything about the language that would be used or give people 
an adequate opportunity to reflect on it.
    I would point out that they already have sufficient 
authority under section 11(c). The difference is under 11(c), a 
complaint initiates the investigation and OSHA's actions. What 
OSHA is trying to do is create an opportunity for them to issue 
a citation when they think they have a retaliation claim 
without waiting for the complaint.
    I do not know if that is a good thing or a bad thing, I 
think that is what the hearings and comments would have 
addressed if we had the opportunity to do so.
    Chairman Walberg. The gentlelady's time has expired. I now 
recognize Ms. Wilson, Ranking Member, for her five minutes of 
questioning.
    Ms. Wilson. Thank you. First of all, let me thank you, Dr. 
Sokas, for wearing red today. This is our ``Wear Red'' 
Wednesday. Thank you so much.
    Your testimony noted that the Government Accountability 
Office has issued several reports exploring the issue of under-
recording of workplace injuries and illnesses. One GAO report 
examined employer and worker pressure on health care providers 
to downgrade severity of injuries in order to ensure that the 
injury would not be classified as an OSHA recordable incident.
    What did GAO find, and is this something you have 
encountered?
    Dr. Sokas. Thank you. Yes, I am an active member of the 
American College of Occupational and Environmental Medicine. It 
has been on the radar screen for our members for years.
    The GAO found that over half of the healthcare 
professionals who were surveyed had experienced some pressure 
from management to downgrade the treatment being offered in a 
particular instance in order to make it not recordable, use 
Steri-Strips, not sutures, that kind of thing, to the point 
where they felt uncomfortable. Almost half felt the same 
pressure from the employees.
    As a practicing physician, I felt the same thing, where the 
workers are too afraid to have either a workers' comp case 
filed or to have anybody call their worksite, because they are 
afraid of being fired, of punitive responses.
    The pressure from both the workers and from the employers 
has impacted the practice of occupational medicine and 
occupational health nursing and other people as well, 
clinicians in general.
    I did also want to mention that I think the detailed 
information on context for reporting is available already in 
the OSHA Form 301, and that is what the larger companies are 
now being required to submit. The fact that the smaller ones 
are not being required to submit it, I do not think it would be 
difficult to submit it voluntarily if people wanted to do that, 
to address that one concern that was raised.
    Ms. Wilson. GAO issued a report in April 2012 and called 
upon OSHA to clarify its guidance on safety incentive programs. 
Did GAO find that safety incentive programs that are tied to 
low injury and illness rate may lead to underreporting, and how 
has OSHA accomplished this in its rule?
    Dr. Sokas. Exactly. That is exactly the distinction between 
the good incentive programs that encourage people to recognize 
hazards and do something about them and give training, and the 
bad programs that are based on a single number that encourages 
people not to report the injury, not to report the illness 
because somebody is going to lose money in their bonus or 
somebody will lose the ability to participate in a positive 
manner.
    OSHA in this report, in this rule, is very carefully making 
the distinction between those two kinds of incentive programs 
and saying the ones that have the effect of chilling, of 
reducing people's willingness to report, are the ones that they 
are going to look at carefully. The other incentive programs 
that promote healthy recognition of hazards and solutions to 
them, they obviously encourage.
    Ms. Wilson. It appears as if opponents of this rule contend 
that underreporting is not systemic, it is not a systemic 
problem in American workplaces.
    They also claim OSHA has been unable to establish that 
employer policies, such as safety incentive policies, drug 
testing, or disciplinary policies in any way discourage 
employees from reporting injuries and illnesses. Is OSHA 
chasing a non-existent problem? What do credible studies tell 
us about this?
    Dr. Sokas. There are numbers of studies from the academic 
literature and from the GAO reports that you mentioned, from 
the Bureau of Labor Statistics itself, that show that 
systematically there is underreporting in OSHA illness and 
injury logs and in BLS data itself.
    It varies depending on the methods that are used, but if 
you go to a workplace and interview workers, or if you take any 
survey where you interview people and ask the questions, you 
will always find under-recording in the OSHA logs for a variety 
of reasons. Either people do not want to report to their 
supervisors or the supervisors do not want to record it, for 
many different motivations, but the information--there is 
always a difference there in all of the studies.
    Ms. Wilson. Thank you.
    Chairman Walberg. The gentlelady's time has expired. Now, I 
recognize Mr. Pocan for your five minutes.
    Mr. Pocan. Thank you, Mr. Chairman, I appreciate it, and 
thank you to the witnesses. I am usually not too much at a loss 
of words at a hearing, but this one, I have to admit, I am a 
little surprised that there is opposition to this rule 
specifically. I know it was mentioned we feel like we are back 
to the 1930s. I was thinking more a little before that, the 
turn of a century, when workers had absolutely no rights and we 
did not record these sort of things, and there was no 
recognition whatsoever.
    When I hear people talking about OSHA and the ``madness'' 
and the ``arrogance,'' and how after six months something is 
stale--losing a limb is not stale after six months, losing a 
family member is not stale. Those words seem to drip in a 
little bit of arrogance. I do have a little bit of non-
understanding on that.
    I do have one question, Mr. Sarvadi. I know your 
association is largely funded by the U.S. Chamber and NAM, and 
both of those organizations opposed the creation of OSHA in the 
early 1970s. Do those organizations still oppose the creation 
of OSHA?
    Mr. Sarvadi. I do not recall they opposed it, and I do not 
know what their position is--
    Mr. Pocan. They did. No problem, thank you. I will reclaim 
my time.
    Mr. Sarvadi. I would say--
    Mr. Pocan. I reclaim my time, sir. Thank you.
    Mr. Sarvadi. If I could--
    Mr. Pocan. No, no. Actually, I am reclaiming my time, thank 
you. The problem is both those organizations did. I understand 
they have a beef with the overall concept.
    You said it is not their job to save lives. I looked at the 
mission of OSHA very clearly. I think the public expects--if 
you read the mission, it is to make sure you are saving lives. 
Of course, that does happen to the employer, and I am most 
sympathetic to Ms. Sprick, because you list your concerns. I am 
a small business owner as well.
    I look at the things you brought up, and I think what came 
out of the hearing--sometimes people like to create fear among 
small business owners, and they come here--I am just really 
glad we have a small business owner. Usually, they just bring 
us lawyers, and they all get paid to say stuff. You and I are 
just trying to make sure we are employing people and doing a 
business.
    Some of the things you brought up, I think, did come out 
around the inadvertent public disclosure for individuals, that 
information will not be collected, so we do not have to worry 
directly on that.
    On the context of information, if you are over 250 
employees, you are going to have that incident where you write 
down if it was a fall but there is going to be more written 
about it, so you are going to have the broader context. If you 
are under 250, which I would assume are most of the roofing 
association's members, at least in my district, they are not 
250 employees or more, it is not even mentioned, a fall. It is 
very much days loss data, a simple line listing that is 
published.
    I do not think you are going to have that problem that is 
out there. For the bigger employers, they will have the rest of 
the context of information put there, and I think that is going 
to be very helpful.
    I believe there was a concern about the misuse, harmful to 
employers. I understand what you are saying, but at the same 
time, I look at the comments from the former head of Alcoa, who 
talked about why this has been good for his business.
    In fact, he said when they had someone who passed away, 
that made them really look at what they did, and during a 
period of 13 years that he was there, they dropped the rate 
from 1.86 to .20 loss rate, and their market value jumped from 
$3 billion to $27 billion, and their net income went from $200 
million to $1.48 billion. I think the context of the person's 
comment is it actually made them focus on things.
    If I go to New York City and I want to have Thai food, I 
see two Thai restaurants, one has an A and one has a C, unless 
they have really, really good Thai iced tea that I know is 
worldwide at the C, I am probably going to the A. That is part 
of why we collect that information.
    I think many of your concerns will probably be more 
addressed, and I think the fear factor is out there.
    I do have a very specific question for Dr. Sokas. You 
started talking about the one example with the nurses. This has 
been collected now for a year. Can you provide how this rule is 
having a difference? Do you have some examples that you can 
offer? I think that might be helpful in the full context.
    Dr. Sokas. There is a great report that OSHA put out, David 
Michaels wrote, about what has happened with the 10,000 serious 
cases that the Ranking Member already alluded to. One of the 
companies, for example, had hospitalization for a heat stress 
injury, and then they went back and they decided to change 
their rest breaks. They had water available. They started 
installing fans. It was a waste company. Another company had 
the problem with the amputations, as you heard. What they did 
was they went back and installed guards.
    The goal of all of this is to find the problems, have the 
employer, wherever possible, find and fix them, and then share 
the information across the industry so other people do not have 
to wait and experience their own tragedies before they can 
identify a problem and then fix it.
    The report is full of those kinds of examples. I think OSHA 
used its scarce resources to go out to maybe 40 percent of the 
locations reporting, but fully 60 percent or more wound up 
having the employers themselves respond and fix it before the 
next person could lose an arm.
    Mr. Pocan. Thank you.
    Chairman Walberg. I thank the gentleman. Now, I recognize 
the gentleman from California, Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
the witnesses, too. Like my colleague from Wisconsin, having 
owned small businesses, restaurants, for many years, I always 
struggled with my aversion for unnecessary regulation and the 
overhead that caused versus what Mr. Pocan said, if you do the 
right thing, you do not have these problems.
    I had a bigger problem with competitors, usually larger 
food and restaurant companies, that clearly were run on a path 
to the bottom.
    Ms. Sprick, my sort of frustration is if you do the right 
thing, as you do, in your industry, and certainly in 
California, we have a lot of evidence that in the roofing 
industry there are a lot of non-licensed contractors who were 
not paying workers' compensation, were not paying payroll 
taxes, and you are doing the right thing.
    Certainly, there is a general conveyance or confluence of 
interest where in your interest for your company and other 
companies like this, you want to get rid of those people who 
are non-licensed and are not doing workers' compensation much 
less reporting those incidents.
    Could you just comment on that?
    Ms. Sprick. We have the same problem in Oregon, 
unfortunately, of unlicensed contractors. It is not only the 
reporting part but the non-context. If they are unscrupulous in 
business practices, they are going to be unscrupulous in how 
they are going to use that information and how they are going 
to take that information out of context and use it however they 
see fit. That is my concern.
    The concern is not only the accident itself but the context 
to size of business, how long they have been in business. You 
are just looking at one side of the story, and as we all know, 
how one side of the story can be swayed in any way, shape, or 
form that you see fit. That is my concern.
    My greater concern is the electronic reporting of this is 
going to provide another conduit for breach of potential 
privacy that I protect fervently in my company to protect my 
workers, so you are exposing me to another way that I, myself, 
could be held up for liability but more so, that my workers' 
private information could be accessed either inadvertentedly--
the rule that I saw, it said the information will be redacted. 
It does not say it will not be collected. That is where my 
concern is as well.
    Mr. DeSaulnier. If I could just interrupt, Dr. Sokas, can 
you respond to that? There are contentions, not just as has 
just been expressed, but that there will be frivolous lawsuits 
because of this information. I understand the Department has 
for 10 years gotten information from 80,000 employers. I am 
just wondering if you could respond to both the concern, but 
also the fact that we have already been doing this for some 
period of time and it does not seem to have led to frivolous 
lawsuits.
    Dr. Sokas. Two things. One is that my understanding of the 
rule--I think there is a little confusion because there is this 
one page that I think says it differently. My understanding of 
the rule itself is that they are not going to collect those 
pieces of information, worker's name, address, all those pieces 
of information would not be collected, and certainly not from 
small businesses--they are not collected by anybody, even the 
large businesses. That is not really--should not be a problem 
at all.
    The issue with MSHA is even when they do present 
information, that is available, you can go online. I am unaware 
of any time when they have been sued or one mining company has 
gone after another. There is a lot of other stuff that goes on 
in mining, but that is not one of them.
    Mr. DeSaulnier. Dr. Sokas, maybe you can explain, is there 
anything else, that this information will help in terms of 
research for prevention?
    Dr. Sokas. There is a ton of stuff. For example--
    Mr. DeSaulnier. What are a few of the things?
    Dr. Sokas. One, for example, there is a lot of places that 
are going to green cleaners for schools, for hospitals, all 
kinds of places, to be more sustainable environmentally, and 
the problem is you do not really know if the new procedures are 
better or worse for the people who are doing the cleaning. 
There are microfiber mops that use less water.
    Does that reduce musculoskeletal problems or does it 
increase them? Unfortunately, we do not have a musculoskeletal 
column, but nevertheless, you could do total injury to see 
across this whole industry, all these people are using green 
cleaners, do they have fewer respiratory complaints? Do they 
have fewer skin complaints? Those kinds of things.
    Currently, you have to have a research assistant or a 
student or you have to kind of traipse out to the place, talk 
to the people, get the information, and it is virtually 
impossible to do it on a scale that would allow you to get 
meaningful statistics.
    Mr. DeSaulnier. Thank you. I yield back.
    Chairman Walberg. I thank the gentleman. I recognize myself 
for five minutes of questioning. Mr. Sarvadi, safety experts 
discussed the difference between leading indicators, such as 
preventative risk management tools, lagging indicators, such as 
injury and illness rates, leading/lagging, which indicate when 
a worker has not been protected.
    Do you agree injury and illness records are lagging 
indicators?
    Mr. Sarvadi. They are, certainly. We are looking in the 
rearview mirror because we are only looking at what happened in 
the past.
    Chairman Walberg. Should OSHA be relying on lagging 
indicators?
    Mr. Sarvadi. I would say OSHA probably ought to listen to 
its own advice. They have been telling employers for more than 
10 years that employers should be providing and looking for 
leading indicators and should be focused on the leading 
indicators. I think they might take their own advice.
    Chairman Walberg. Hard message but an appropriate message. 
For calendar year 2015, I was struck with the fact that OSHA 
received fewer than 11,000 reports of hospitalizations and 
amputations, significant problems.
    While the regulatory proposal suggests that OSHA would 
receive 117,000, OSHA believes fiscal year 2015 reports 
represent only 50 percent of annual occupational injuries. That 
is a lot of cover, if that is true.
    Have you seen any evidence from OSHA or other studies that 
would justify OSHA's assumption?
    Mr. Sarvadi. I have not. I think the numbers that they are 
seeing are probably realistic based on my experience over the 
years and in paying attention to the trade press and that sort 
of thing. I think the numbers that we are seeing are probably 
very realistic in terms of what is actually happening.
    Chairman Walberg. We would certainly conclude there might 
be some out there--there are construction workers under union 
representation who indicated they held back reporting because 
of fear of being hurt on the job or being fired, and yet they 
had union representation to protect them from that, so that 
seems a little bit strange, that would be an actual experience, 
that would be something OSHA was hiding.
    Mr. Sarvadi. I think the point that I was trying to make in 
the testimony is we are focusing an awful lot on keeping track 
of things that happened in the past and not taking advantage of 
what we know already to make corrections in the future.
    The anecdotes that we have heard about these things being 
underreported, misreported, certainly, those kinds of things 
happen, given the number of questions that we get in our office 
from people in the employment community who are asking is this 
case recordable, how do I record it, suggests there are bound 
to be some errors.
    My point is if the BLS approach is correct, and it is 
statistically reliable, then all this effort to generate more 
information about underreported or misreported cases is not 
going to change the outcome. It is not going to change the 
understanding of what the real significant problems are.
    What I would suggest is OSHA take advantage of what it has 
right now and refocus its efforts to begin looking at ways for 
employers to work together with their employees to come up with 
better systems, like the one Ms. Sprick has talked about.
    Chairman Walberg. Thank you. Ms. Sprick, can you tell what 
you do to protect your employees' personal health information?
    Ms. Sprick. Can I? I am sorry, I did not hear what you 
said. Yes. For hard copy, they have separate medical files that 
are stored in separate locked filing cabinets in a separate 
locked fireproof room within our office that has security 
cameras and is also monitored with security systems.
    Our electronic data, our firewalls are continually tested 
for hacking, which is my other concern, not only inadvertent 
disclosure but intentional hacking is a very large concern of 
mine, as it should be all of ours. We hear it in the news 
almost daily.
    My IT guy is a former professional hacker, so companies 
actually hired him to sit outside their office and see how long 
it took him to get into their system. That is my guy that 
protects my electronic data from anyone being able to access 
it.
    Chairman Walberg. This would cause you some concern going 
the direction--it is going away from the protection that you 
are providing, including using a professional hacker?
    Ms. Sprick. Absolutely, yes. For me, it is one more conduit 
for somebody to be able to access information that is private. 
Also, the concern about the information being redacted. I am a 
small company. If one of my guys breaks their ankle and it is 
posted on a Web site saying this person broke this ankle, it is 
pretty easy to figure out which guy that is. Their personal 
health and privacy has been breached, in my opinion. That is 
another way that I am concerned.
    Chairman Walberg. Thank you. I want to thank each of the 
witnesses for your time and attention. You have been a valuable 
reference tool and experienced tool for us today in developing 
our context and understanding of what is going on.
    Our time has expired, so now I recognize my friend and 
colleague, Ranking Member Wilson, for her closing comments.
    Ms. Wilson. Mr. Chairman, the law is clear: Section 
8(c)(2), Section 8(g), and Section 24(a) of the OSH Act 
expressly tasks the Secretary of Labor with, one, requiring 
reporting and recordkeeping on serious workplace injuries; two, 
ensuring this information is accurate; three, compiling, 
analyzing, and publishing either in summary or detailed form, 
all reports or information obtained under this authority.
    OSHA's recordkeeping rule is clearly grounded in this 
statutory duty and will promote safer workplaces. This rule 
will give OSHA the ability to more quickly identify hazards and 
target its limited funds to prevent injury reoccurrence.
    Publicly available injury data will also help workers that 
are advocates for improved safety conditions. It will allow 
responsible employers to better understand and develop ways to 
mitigate workplace hazards.
    We must reject arguments that workplace safety transparency 
is incompatible with good business. Nothing refutes this point 
more than the work and words of Paul O'Neill, former Secretary 
of Treasury under George W. Bush and former CEO of Alcoa, a 
global leader in aluminum manufacturing based in Pittsburgh, 
Pennsylvania.
    In a recent op-ed, Mr. O'Neill wrote, ``Don't fear 
transparency, embrace it. A focus on safety, even in the glare 
of public scrutiny, will not only help your workers, but it 
will also improve your bottom line.''
    Mr. O'Neill, upon taking the helm of Alcoa, made a now 
infamous inaugural speech declaring his commitment to worker 
safety that would catapult Alcoa's profits. In the 13 years, 
Mr. O'Neill made worker safety and transparency mission one, 
Alcoa saw its market value climb from $3 billion to $27.53 
billion, and net income soared from $200 million to $1.484 
billion. Today, Alcoa's corporate Web site publishes real time 
injury and illness rates.
    As Mr. O'Neill states, bottom lines and safety transparency 
are definitely compatible and sustainable.
    Mr. Chairman, I ask unanimous consent to offer into the 
record an op-ed from Mr. O'Neill entitled, ``Don't Fear the 
Injury Data.''
    Chairman Walberg. Without objection, it will be entered, 
and hearing no objection, it is done.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Ms. Wilson. The OSH Act clearly states that the Secretary 
has a duty to ensure the accuracy of workplace injury records 
and reports. This rule ensures accuracy by addressing 
underreporting that stems from fear of retaliation for 
reporting.
    As we have heard, workplace safety incentive programs, 
although sometimes well meaning, can actually undermine safety 
by discouraging employees from reporting injuries. More 
egregious policies and procedures punish workers instead of 
focusing on addressing workplace hazards.
    For example, I have a warning note sent to an employee 
after he sustained several injuries over a three-year period. 
This note chastises the employee and clearly discourages 
reporting.
    It states, ``The worker demonstrates a serious lack of 
attention to the worker's own safety. The employee was 
suspended for three days, stripped of operator classification, 
and warned he would be fired should he have another OSHA 
recordable injury.''
    There is no mention of working with the employee to better 
understand the cause of injuries or efforts to prevent injury 
reoccurrence. Just blame, blame, blame; blame for the worker.
    I ask unanimous consent to enter this warning notice into 
the record.
    Chairman Walberg. Without objection, it will be entered.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Ms. Wilson. I applaud OSHA for finalizing rules to improve 
worker safety and increase transparency. No working American 
should head off to work wondering if today is the day she will 
sustain an injury that seriously impacts her life or takes her 
life. No mother, father, son, or daughter should dread getting 
a phone call informing them that their loved one has been 
seriously injured on the job.
    We should support OSHA in its efforts to promote the better 
injury and illness recording/reporting that leads to safer 
workplaces. Instead of holding hearings attacking OSHA's 
efforts to promote worker safety, let's hold hearings on ways 
we can support OSHA by increasing its budget for better 
enforcement, or passing H.R. 2090, Protecting America's Workers 
Act, to strengthen OSHA's ability to protect workers.
    Finally, Mr. Chairman, I ask unanimous consent to place 
into the record letters in support of OSHA's rule from the 
following organizations: Public Citizen, American Federation of 
State, County, and Municipal Employees (AFSCME), United 
Steelworkers, Harvard Kennedy School's Ash Center for 
Democratic Governance and Innovation.
    I yield the remainder of my time.
    Chairman Walberg. Without objection, they will be entered.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Walberg. I thank the gentlelady. I thank again the 
panel, as well as my colleagues, in taking action or taking 
part in this hearing. As we started out the hearing, I think we 
made it very clear, Democrat/Republican, employee/employer, 
bureaucrat, there is no one that I have met who wants an unsafe 
workplace. There is no one who wants to see employees injured 
in the workplace who wants to succeed in the workplace or as an 
employer.
    We are not, thankfully, in the 1920s and 1930s, or even in 
the 1960s, as I remember working at U.S. Steel in a plant that 
had carried on for many, many years, but workplace conditions 
are not what I see now, at least from my perspective of taking 
149 workplace visits this last year myself in my district, 
seeing workplace environments in steel mills, manufacturing 
sites, in small businesses, that do not compare to what went on 
in the past.
    They are clean. They are up-to-date. They are safe and, 
frankly, they are always in an effort of improving.
    We certainly do not fear transparency. We want 
transparency. We do not fear accuracy in reporting. We want 
accuracy in reporting. We also want our regulators to 
understand that there are best practices that are better than 
anything that are being offered, and there is a context that 
needs to be considered as well if you are going to have 
transparency and accuracy.
    When you refuse to take the advice or even offer the 
opportunity for people who live and work and provide jobs and 
do those jobs in the real world, you have a problem that has 
developed.
    We saw the ability, I believe three years ago, when we had 
a hearing in this subcommittee on fall protection, and we had 
real world testimony coming from some of our Committee members 
who were in the industry and knew what went on, and like Ms. 
Sprick, had an unbelievably good safety record, were able to 
instruct OSHA on the fact that they were going to hurt people 
if they took an one-size-fits-all plan on fall protection. We 
saw them thankfully back away. They heard good advice with 
context, with accuracy, with transparency.
    We are, however, in the twenty-first century, and there is 
something we did not have back in the 1920s and 1930s, and even 
to a great degree in the 1960s, and that is global competition, 
massive global competition, that do not deal with some of the 
things we put in the way of in certain cases success for our 
own industry.
    We saw last year $1.9 trillion annual costs to our 
employers simply for regulatory compliance costs. We need 
certain regulations, but we also need to understand that if we 
over regulate or we regulate without rationality and regulate 
even worse without context that promotes the value of that 
regulation, those costs will increase. Those costs are not 
found in our competitors. They have to come up to our 
standards. Right now, they are just trying to beat us.
    Partnership is what we are looking for. Best practices 
primarily developed by business and industry and leading the 
way for regulators to understand, pushing things like VPP. 
There is a partnership that allows both sides to learn from 
each other.
    Rather than going in that direction, we continue to push 
for more regulation for regulation sake, without consideration 
of context and reality.
    To my colleagues and others in the room, that is what this 
hearing is about, not trying to make the workplace less safe or 
give special benefit to employers over employees, it is rather 
to make the workplace safe with rational, transparent, and 
accurate regulation that comes in.
    I, again, thank each one involved this morning in this 
hearing, and hopefully, OSHA and other regulators are listening 
to our concerns and the reality that comes in life itself.
    With no further business to be carried on by the 
subcommittee, the subcommittee stands adjourned.
    [Additional submission by Mr. Sapper follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
